APPENDIX A

NOT RECOMMENDED FOR PUBLICATION

\r

FILED

No. 19-1290
LOTTED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
In re L AURA MARJE SCOTT.

)
)
)
)

Debtor.

)
)
)
)

LAURA MARIE SCOTT,
Plaintiff-Appellant.
v.
CITY OF HAMTRAMCK. MI. TREASURER;
WAYNE COUNTY, MI: STATE OF MICHIGAN,
Defendants-Appellees.

Apr 28, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)
)
)
)
)
)
)

ORDER
Before: COLE. Chief Judge: GUY and BUSH, Circuit Judges.

Laura Marie Scon, a Michigan resident proceeding pro se, appeals a district court judgment
denying her motion for leave to proceed in forma pauperis and dismissing her appeal from a
bankruptcy court decision in an adversary proceeding. Scott has also filed a motion to proceed in
forma pauperis, a motion for injunctive relief requesting waiver of the filing fee for her appeal to
the district court, and a motion to compel the city of Hamtramck to comply w'ith the judgment of
the bankruptcy court. This case has been referred to a panel of the court that, upon examination,
unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
As a result of delinquent w'ater bills and property taxes, Scott filed a petition for relief under
Chapter 7 in the Bankruptcy Court for the Eastern District of Michigan. Scott then commenced

No. 19-1290
-2-

an adversary proceeding seeking the reimbursement of taxes, disputing the accuracy of her
outstanding water bill, challenging the validity of liens, and alleging violations of the Truth in
Lending Act. 1: L.S.C. § 1601, et seq., and the Fourteenth Amendment. After conducting an
e\ iderruary hearing, the bankruptcy court determined that Scott was overcharged on her water
cms. rejected her remaining claims as lacking merit, issued a judgment in favor of Scott in the
amount ot S:>89.2o. and certified that that any appeal would not be taken in good faith. Scott
appealed and moved for leave to proceed in forma pauperis before the district court. The district
court denied the motion and dismissed the appeal.
On appeal, Scott argues that the district court erred in dismissing her appeal and that the
bankruptcy court lacked the authority to require her to pay an appellate filing fee. To the extent
that Scott raises new arguments on appeal, these claims are not properly before the court because
they were not raised before the bankruptcy court. See United States v. Ellison, 462 F.3d 557, 560
(6th Cir. 2006). Additionally, Scott has forfeited review of any arguments that were raised before
the bankruptcy court but were not raised in her appellate brief. See Agema v. City ofAllegan, 826
F.3d 326, 331 (6th Cir. 2016).
We review a district court's decision denying leave to proceed in forma pauperis for an
abuse of discretion. See Phipps v. King, 866 F.2d 824, 825 (6th Cir. 1988). “An appeal may not
be taken in forma pauperis if the trial court certifies in writing that it is not taken in good faith.”
28 U.S.C. § 1915(a)(3). An appeal is not in good faith if it “lacks an arguable basis either in law
or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989).
Scott does not have a non-frivolous argument that the district court erred in dismissing her
complaint. Scott’s challenge to her 2013 and 2014 tax obligations lacks merit because she admitted
to not

paying taxes for those years. Moreover, her claims that a city ordinance violated the

Fourteenth Amendment, that judgment liens were invalid, that Hamtramck violated the Truth in
Lending Act, that she should not have been billed for garbage pickup, and that Hamtramck engaged
in fraud were properly dismissed as conclusory or lacking evidentiary support. Because Scott’s
complaint lacked an arguable basis in law, the district court did not abuse its discretion in denying
the motion to proceed in forma pauperis.

No. 19-1290
-3 jft

=—•

proceed in forma pauperis for the limited purpose of this appeal, and DENY all other pending
motions as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX B

No. 19-1290
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
In re: LAURA MARIE SCOTT,
Debtor.

LAURA MARIE SCOTT,
Plaintiff-Appellant,
V.

CITY OF HAMTRAMCK, MI, TREASURER;
WAYNE COUNTY, MI; STATE OF MICHIGAN,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)

FILED

Mar 20, 2020
DEBORAH S. HUNT, Clerk

ORDER

)
)
)
)
)

Before: MOORE, GILMAN, and ROGERS, Circuit Judges.
Laura Marie Scott appeals the district court’s judgment dismissing her appeal from a
decision of the United States Bankruptcy Court in an adversary proceeding.
Since 1981, Scott has lived in the City of Hamtramck, Michigan. Scott had delinquent
water bills and property taxes dating back to 2013. As a result of the delinquent taxes, which
included the unpaid water bills, Scott’s home was forfeited to the Wayne County Treasurer in the
fall of 2013. In December 2016, Scott filed Chapter 7 bankruptcy. In an effort to prevent the
foreclosure of her home, Scott filed an adversary proceeding against the State of Michigan, Wayne
County, and the City of Hamtramck to recover money and to determine the validity of liens.
Wayne County and the State of Michigan were dismissed from the adversary proceeding. On
September 20,2018, the bankruptcy court entered a judgment in the adversary proceedings in favor

No. 19-1290
-2-

of Scott and against the City ofHamtramck in the amount of S589.25 to “appear as a credit towards
[Scott’s] outstanding water bills.”
Scott filed a notice of appeal from the bankruptcy court's decision and an application to
proceed in forma pauperis in the appeal. On March 6. 2019. the district court denied Scott’s
application to proceed in forma pauperis and dismissed the appeal with prejudice after concluding
that the appeal was frivolous and not filed in good faith. Scott appealed the district court’s
judgment on March 21, 2019 (appeal No. 19-1290, the current appeal). The Wayne County
Treasurer has fiied a motion to dismiss the appeal as moot.
The City of Hamtramck was the only appellee in the district court appeal, and the only
issue addressed there was whether Scott could in good faith appeal the bankruptcy court’s
disposition of her claims against the City. The Wayne County Treasurer has not shown that those
claims, involving the existence and amount of Scott’s water-bill debt to the City, were mooted by
the v esting of title to the property in the Wayne County Treasurer.
Accordingly, we DENY the motion to dismiss this appeal as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX C

(ORDER LIST: 589 U.S.)
THURSDAY, MARCH 19, 2020
ORDER
In light of the ongoing public health concerns relating to COVID-19, the
following shall apply to cases prior to a ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition for a writ of certiorari
due on or after the date of this order is extended to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a timely
petition for rehearing. See Rules 13.1 and 13.3.
IT IS FURTHER ORDERED that motions for extensions of time pursuant to
Rule 30.4 will ordinarily be granted by the Clerk as a matter of course if the grounds
for the application are difficulties relating to COVID-19 and if the length of the
extension requested is reasonable under the circumstances. Such motions should
indicate whether the opposing party has an objection.
IT IS FURTHER ORDERED that, notwithstanding Rules 15.5 and 15.6, the
Clerk will entertain motions to delay distribution of a petition for writ of certiorari
where the grounds for the motion are that the petitioner needs additional time to file
a reply due to difficulties relating to COVID-19. Such motions will ordinarily be
granted by the Clerk as a matter of course if the length of the extension requested is
reasonable under the circumstances and if the motion is actually received by the
Clerk at least two days prior to the relevant distribution date. Such motions should
indicate whether the opposing party has an objection.

IT IS FURTHER ORDERED that these modifications to the Court’s Rules
and practices do not apply to cases in which certiorari has been granted or a direct
appeal or original action has been set for argument.
These modifications will remain in effect until further order of the Court.

APPENDIX D

(ORDER LIST: 589 U.S.)
WEDNESDAY, APRIL 15, 2020
ORDER
In light of the ongoing public health concerns relating to COVID-19:
IT IS ORDERED that with respect to every document filed in a case prior to a
ruling on a petition for a writ of certiorari or petition for an extraordinary writ, or a
decision to set an appeal for argument, a single paper copy of the document, formatted
on 8% x 11 inch paper, may be filed. The document may be formatted under the
standards set forth in Rule 33.2, or under the standards set forth in Rule 33.1 but
printed on 814 x 11 inch paper. The Court may later request that a document initially
submitted on 814 x 11 inch paper be submitted in booklet format.
IT IS FURTHER ORDERED that the following types of documents should
not be filed in paper form if they are submitted through the Court’s electronic filing
system: (1) motions for an extension of time under Rule 30.4; (2) waivers of the right
to respond to a petition under Rule 15.5; (3) blanket consents to the filing of amicus
briefs under Rules 37.2(a) and 37.3(a); and (4) motions to delay distribution of a cert
petition under the Court’s Order of March 19, 2020. Notwithstanding Rule 34.6 and
paragraph 9 of the Guidelines for the Submission of Documents to the Supreme
Court’s Electronic Filing System, these enumerated filings should be filed
electronically in cases governed by Rule 34.6, although other types of documents in
those cases should still be filed in paper form only.
IT IS FURTHER ORDERED that, notwithstanding Rule 29.3, parties may
be relieved of the obligation to effect service of paper versions of filings upon other

m

parties if they agree to electronic service; parties are strongly encouraged to use
*7

electronic service if feasible.
These modifications will remain in effect until further order of the Court.

m

APPENDIX E

Case No.: 16-56880
UNITED STATES BANKRUPTCY COURT EASTERN DISTRICT OF MICHIGAN SOUTHERN DIVISION

Scott y. City of Hamtramck Treasurer (In re Scott)
Decided Aug 14,2017

Case No.: 16-56880 Adversary Proceeding Case No.: 17-04411
08-14-2017
In re: Laura Marie Scott, Debtor. Laura Marie Scott, Plaintiff, v. City of Hamtramck Treasurer, et. al
Defendants.
Hon. Mark A. Randon
Chapter 7
OPINION AND ORDER GRANTING DEFENDANTS’ MOTIONS TO DISMISS
(DKT. NOS. 18 AND 201

I. INTRODUCTION

2

Plaintiff has unpaid water bills and property taxes dating back to 2013. As a result of the delinquent taxes,
which include the unpaid water bills, Plaintiffs home was forfeited to the Wayne County Treasurer, later
foreclosed (passing title to the Treasurer), and is scheduled to be sold at a public auction in September or
October 2017. Plaintiff filed this adversary proceeding as a last-ditch effort to unwind the forfeiture/foreclosure
and save her home from auction. *2
Wayne County and the State of Michigan's motions to dismiss are pending.1 The Court heard argument on
August 7, 2017. Plaintiff, essentially, makes two arguments: (1) her water bills were either fraudulent or
erroneous which-when added to the tax bill-made the property tax delinquency artificially high; and (2) the
State of Michigan unlawfully denied her several years of homestead property tax credits, which she could have
used to pay her delinquent tax bills.2
1 Plaintiff also named Bill Schuette as a defendant, but stated in her response to the State of Michigan's motion that he is
not being sued in his personal capacity. As such, Bill Schuette is DISMISSED from this adversary proceeding.
2 Plaintiff also argues that the delinquent bills should have been discharged in her Chapter 7 bankruptcy, based on a city
ordinance that makes it a personal debt. Because the City of Hamtramck Treasurer remains a defendant in this
adversary proceeding, the Court will address this argument at a later date.

Because: (1) the Wayne County Treasurer is simply a tax collection agency-not the entity that makes the tax
assessment or bills residents for water consumption; and (2) the Court lacks subject-matter jurisdiction over the
State of Michigan, both motions are GRANTED.

II. STANDARD OF REVIEW

Scott v. City of Hamtramck Treasurer (In re Scott)

3

Case No.: 16-56880 (Bankr. E.D. Mich. Aug. 14, 2017)

Federal Rule of Civil Procedure 12(b)(6), made applicable to this proceeding by Federal Rule of Bankruptcy
Procedure 7012, provides for the dismissal of a case where the complaint fails to state a claim upon which
relief can be granted. When reviewing a motion to dismiss under Rule 12(b)(6), a court must "construe the
complaint in the light most favorable to the plaintiff, accept its allegations as true, and draw all reasonable *3
inferences in favor of the plaintiff." DirectTV, Inc. v. Treesh, 487 F.3d 471, 476 (6th Cir. 2007). But the court
"need not accept as true legal conclusions or unwarranted factual inferences." Id. (quoting Gregory v. Shelby
County, 220 F.3d 433, 446 (6th Cir. 2000)). "[L]egal conclusions masquerading as factual allegations will not
suffice." Eidson v. State ofTenn. Dep't of Children's Services, 510 F.3d 631, 634 (6th Cir. 2007). Dismissal is
appropriate if the plaintiff failed to offer sufficient factual allegations that make the asserted claim plausible on
its face. Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007).

III. ANALYSIS
A. Wayne County's Motion to Dismiss

4

As an initial matter, Wayne County argues that it is not a proper defendant: the Wayne County Treasurer should
have, instead, been named as a defendant. To the extent Plaintiff named Wayne County as a defendant, it is
DISMISSED from this adversary proceeding. However, the Court finds the Wayne County Treasurer was
adequately represented by counsel who appeared on behalf of Wayne County. See Letter from Kilpatrick and
Associates, P.C., attached as Exhibit 8 to Plaintiff's Response (Dkt. #21) ("Kindly be advised that our firm
represents the Wayne County Treasurer in the above captioned matter") (emphasis added). Even if the Wayne
County Treasurer was not named as a defendant, which Plaintiff disputes, the Court may grant Plaintiff leave to
amend her complaint. *4
Nevertheless, Plaintiff fails to state a plausible claim against the Wayne County Treasurer; therefore, any
amendment would be futile. The Wayne County Treasurer is simply a tax collection agency for the City of
Hamtramck pursuant to MICH. COMP. LAWS § 211.78a. Indeed, Plaintiff admits in her complaint that "[t]he
county appears to be a third-party debt collector for the city[.]"
Plaintiff should have brought any disputes about her water bills and property taxes to the City of Hamtramck.
According to Section 13-01 of the City of Hamtramck Code of Ordinances, "The City levies, collects, and
returns state, county, and school taxes as provided by ordinance in accordance with law."3 (Emphasis added).
Section 13-06 allows Plaintiff to challenge her tax assessment with the board of review: "[the board of review]
shall hear the complaints of all persons considering themselves aggrieved by assessments^]"4 If she did not
agree with the board of review's decision, she could have appealed to the Michigan Tax Tribunal.5 The
Tribunal's decision could then be appealed to the Michigan Court of Appeals.6 Plaintiff failed to challenge her

5

delinquent bills at the *5 local level. And, 11 U.S.C. § 505(a)(2)(C) prohibits the Court from determining the
amount or legality of any ad valorem tax on real or personal property of the estate, if the applicable period for
contesting or redetermining that amount under applicable nonbankruptcy law has expired. Once tax bills are
transferred, the Wayne County Treasurer's authority is limited to collection. See Section 13-14 of the City of
Hamtramck Code of Ordinances:
3 AMERICAN LEGAL PUBLISHING CORPORATION CHAPTER 13 - TAXATION AND FINANCE,
http://library.amlegal.eom/nxt/gateway.dll/M.ichigan/hamtramck_mi/cityofhanitranickinichigancodeofordinances?
f=templates$fh=default.htm$3.0$vid=amlegal:hamtramck_mi (last visited August 10, 2017).
4 Id.

Scott v. City of Hamtramck Treasurer (In re Scott)

Case No.: 16-56880 (Bankr. E.D. Mich. Aug. 14, 2017)

5 LARA TAX TRIBUNAL DEPARTMENT OF LICENSING AND REGULATORY AFFAIRS,
http://www.michigan.gov/taxtrib (last visited August 11, 2017).
6 LARA TAX TRIBUNAL DEPARTMENT OF LICENSING AND REGULATORY AFFAIRS,
http://www.michigan.gOv/taxtrib/0,4677,7-187-67491-131719--,00.html (last visited August 11,2017).

If the treasurer has been unable to collect any of the city taxes ... on real property before the first day
of March following the date when the roll was received by him, it shall be his duty to return all such
unpaid taxes on real property to the county treasurer[.]
See also MICH. COMP. LAWS § 211,78a(l) ("[A]ll property returned for delinquent taxes, and upon which
taxes, interest, penalties, and fees remain unpaid after the property is returned as delinquent to the county
treasurers of this state under this act, is subject to forfeiture, foreclosure, and sale for the enforcement and
collection of the delinquent taxes[.]").
B. State ofMichigan's Motion to Dismiss
The Court first determines whether it has subject-matter jurisdiction over the State of Michigan.

6

Upon referral from the district court, a bankruptcy court has subject-matter jurisdiction over all cases "under
title 11," and all civil proceedings "arising under," "arising in," or "related to" a case under title 11. 28 U.S.C. §
1334(a), (b). Actions "arising under" title 11 involve claims created or determined by a statutory provision of
*6 title 11. Bliss Technologies, Inc. v. HM1 Industries, Inc. (In re Bliss Technologies, Inc.), 307 B.R. 598, 602
(Bankr. E.D. Mich. 2004). "Arising in" proceedings are those that could arise only in bankruptcy cases. Id. An
action is "related to" a case under title 11 if its outcome could "conceivably have any effect" on the bankruptcy
estate. Michigan Emp't Sec. Cotnm'n v. Wolverine Radio Co., Inc. (In re Wolverine Radio Co.), 930 F.2d 1132,
1142 (6th Cir. 1991) (emphasis in original).
The Court lacks subject-matter jurisdiction over the State of Michigan: the State indicated that Plaintiff is not
indebted to it; therefore, it does not have a claim against Plaintiff. As such, Plaintiffs complaint against the
State of Michigan is not even "related to" the bankruptcy estate.
Second, the State of Michigan denied Plaintiffs homestead property tax credits because Plaintiff failed to
provide all documentation requested. In fact, Plaintiff testified at the hearing that she did not provide a copy of
her identification, as requested. The Court, therefore, cannot find that the denial was unlawful.7
7 Alternatively, the Court finds Plaintiffs complaint fails to present any plausible claims as to the State or the Attorney
General.-------

IV. CONCLUSION

7

Because: (1) the Wayne County Treasurer is simply a tax collection agency-not the entity that makes the tax
assessment or bills residents for water consumption; and (2) the Court lacks subject-matter jurisdiction over the
State of Michigan, both motions are *1 GRANTED. The only remaining defendant in this adversary
proceeding is the City of Hamtramck Treasurer.
IT IS ORDERED. Signed on August 14,2017
/s/ Mark A. Randon
Mark A. Randon

Scott v. City of Hamtramck Treasurer (In re Scott)

United States Bankruptcy Judge

casetext

Case No.: 16-56880 (Bankr. E.D. Mich. Aug. 14, 2017)

APPENDIX F

k :

1
2
3

STATE OF MICHIGAN
THIRD JUDICIAL CIRCUIT COURT FOR THE COUNTY OF WAYNE
CIVIL DIVISION
WAYNE COUNTY TREASURER,

4
5
6

Case No. 16-007539-CH
-vMICHIGAN PROPERTIES, WAYNE
COUNTY, et al,
Defendant.

*.4

/

7
8
MOTION
9
10

BEFORE THE HONORABLE ROBERT J. COLOMBO, CIRCUIT JUDGE

11

Detroit, Michigan - Tuesday, March 22, 2017

12
APPEARANCES:

o

13

}

For the Treasurer:
14
15
16
17
18
19
20
21
22
For the Defendant:

LAURIE SCOTT,

(pro per)

23
24
25
*

1

c

1
2

THE COURT: They're taking your property out
of tax foreclosure this year. So you have a year.

3
4

MS. SCOTT: I didn't know that it lasted a
year. My understanding was —

5
6

THE COURT: Well, that's when — that's when
the next tax foreclosure comes up.

7

MS. SCOTT: Oh, okay. So that gives me the

8

time I need to work through this then. Okay, that was

9

not clarified to me that the year part of it. So I

10

can work with the Bankruptcy Court now.

11

O

It

as I understand it, the adversary

12

motion that I need to file to get these Hamtramck

13

portions of, of these things off my taxes is going to

14

be going through a court like this rather than a

15

bankruptcy court directly.

16

THE COURT: I can't advise you on the law.

17

MS. SCOTT: Okay, but I have to file that

18

next.

19

over there and do that today. So there is no reason

20

for me to ask for anything to do with this court and

21

I just deal with them directly, okay.

That is my intention is. So then I'll go back

22

THE COURT: That's correct.

23

MS. SCOTT: Okay. Well, I'm sorry to taken

24

up the courts time but I just want to make sure I

25

didn't miss any steps.

APPENDIX G

Michigan Department of Treasury
4264 (Rev. 9-11)

NOTICE OF SHOW CAUSE HEARING AND JUDICIAL FORECLOSURE HEARING
Issued under the authority of Public Act 206 of 1893; MCL 211.78j.

To: INTERESTHOLDER
Property ID Number: LPN
Legal Description: Legal Description
Street Address (from the tax roll, if available): Property Address
You are notified of the pending FORECLOSURE of your interest in real estate due to UNPAID Tax Year and/or prior
years’ property taxes due to associated recorded document: RECORDED DOCUMENT TYPE & DATE. Other parties
with a recorded interest in this property include: ADDITIONAL INTEREST HOLDERS. Before the foreclosure is final,
there will be two hearings at which you may appear.
A SHOW CAUSE HEARING WELL BE HELD DATE AND TIME AT LOCATION WITH ADDRESS. You may
appear in person, through an agent, in writing or call FGU Phone Number. Appearance at the Show Cause Hearing
is not required to protect your rights at the Judicial Foreclosure Hearing.
The purpose of this hearing is to allow persons with a property interest to show cause why absolute title to the property
forfeited by the county treasurer under 211.78g should not vest in the foreclosing governmental unit. A person claiming an
interest in a parcel of property may contest the validity or correctness of the forfeited unpaid delinquent taxes, interest,
penalties and fees for 1 or more of the following reasons:
a) No law authorized the tax.
b) The person appointed to decide whether a tax shall be levied under a law of this state acted without jurisdiction, or did not
impose the tax in question.
c) The property was exempt from the tax in question, or was not legally assessed.
d) The tax has been paid within the time limited by law for payment or redemption.
e) The tax was assessed fraudulently.
f) The description of the property used is indefinite or erroneous.

THE CIRCUIT COURT FORECLOSURE HEARING IS SCHEDULED FOR DATE AND TIME AT LOCATION
WITH ADDRESS MICHIGAN. The court docket number is CC #. If you wish to contest the petition, you must file
written objections with the Circuit Court Clerk and serve those objections onto the FGU at the address below.

On March 01, Forf Yr, this real property was forfeited to die County Name County Treasurer for nonpayment of property
taxes UNLESS THE FORFEITED DELINQUENT TAXES, PENALTIES, INTEREST AND FEES ARE PAID ON
OR BEFORE March 31 (unless weekend), Forecl Yr, YOU WILL LOSE YOUR INTEREST IN THE PROPERTY
AND TITLE TO THE PROPERTY WILL VEST ABSOLUTELY IN THE FGU WITH ADDRESS and all existing
interests in the property shall be extinguished except for: (i) the interests of a lessee or an assignee of an interest of a lessee
under an oil or gas lease in effect as to the property or any part of die property if the lease was recorded in die office of the
register of deeds in the county in which the property is located before die date of filing the petition for foreclosure under
MCL 211.78h or (ii) oil and gas interests preserved as provided in section 1(3) of die dormant minerals act, MCL 554.291(3).
The total amount to redeem this parcel as of March 01, Forf Yr was SForf Amnt. CONTACT THE COUNTY NAME
COUNTY TREASURER AT ADDRESS AND PHONE for the current payoff amount. Taxpayers may receive
MULTIPLE certified notices if taxes are due for both Foreclosure Tax Year and Forfeiture Tax Year. Foreclosure
Tax Year taxes must be paid in full by March 31 (unless weekend), Forecl Yr in order to prevent foreclosure.
This notice was served by Agency. You may contact us with questions at Agency Address, Phone, Fax, Email. Please refer
to reference number Reference # or property ID number LPN in any correspondence.

County Name

Reference #

APPENDIX H

c

o
c/>
c
o

sz
<1)

STATE OF MICHIGAN
IN THE THIRD JUDICIAL CIRCUIT COURT

CO

COUNTY OF WAYNE

5

sz

Q_
CD
CM
CNJ
05

In the Matter of the Petition of the Treasurer
for the County of Wayne, State of Michigan,
for the Foreclosure of Certain Lands
for Unpaid Property Taxes.

O
CNJ
05
CNJ

JUDGMENT OF FORECLOSURE

co

At a Session of said Court held in the C.A.Y.M.C.
at Detroit, Michigan on the 28th day of March, 2019

cm
UJ

Present: Timothy M. Kenny

O
>-

The Wayne County Treasurer, by and through his attorneys, shows onto this Honorable Court

z

ID
O
O
LD

Z
><

5

Hon. Timothy M. Kenny
Circuit Court No. 18-006771-CH

that:
This matter was initiated with the filing of a Petition for Foreclosure on June 14,2018 by the
Wayne County Treasurer, which Petition was supplemented on September 28,2018 and amended on
February 14, 2019 pursuant to this Court’s ExParte Order Allowing Amendment of Petition (the
Petition, as supplemented and amended, shall hereinafter be referred to as the “Petition”).

05

fc

The Petition identified parcels of property forfeited to the Wayne County Treasurer under

CD

MCL 211.78g for the 2016 and/or prior year’s unpaid taxes and set forth the amount of the unpaid

2

delinquent taxes, interest, penalties and fees for which each parcel of the property was forfeited. The

CO

>,

-C

CO

O
LD

Petition sought a judgment of foreclosure in favor of the Petitioner, the Wayne County Treasurer, due
to the unpaid delinquent taxes, interest, penalties and fees listed against each parcel of property. The

o

Petition further sought a judgment vesting absolute title to each property in the Petitioner, without right

U_

ofredemption, as to parcels of property not redeemed on or before 21 days from entry of the judgment

Ll_

o
>-

2

Z

a

ID

of foreclosure on contested matters.
Before the date of the hearing on the Petition, Petitioner filed with the Clerk of the Court proof
of the notice, service or publication required under the General Property Tax Act, P.A. 206 of 1893, as
amended, MCL 211.1 et seq.

u_

x

o
i

N-

I"-

co

o

O

oo

-l-

A hearing on the Petition and objections thereto was held on February 20,2019, February 21,
2019, March 20, 2019 and March 28, 2019, at which time all parties interested in the forfeited
properties who appeared in court were heard.
The Court finds that all those entitled to notice and an opportunity to be heard have been
provided that notice and opportunity. The Court finds that the Petition should be, and hereby is,
GRANTED.
THEREFORE IT IS ORDERED:
a.

The amount of the forfeited delinquent taxes, interest, penalties, and fees set forth in the list
of foreclosed property contained within Schedule A attached as a CD, to this judgment are
valid and judgment of foreclosure is entered in favor of the Wayne County Treasurer against
each parcel of property for payment of the amount set out against the parcel, including all
charges for interest, penalties and fees that have accrued from the date of the filing of the
Petition on June 14,2018 through the date of payment;

b.

Fee simple title to each parcel foreclosed upon in the judgment will vest absolutely in the
Petitioner, without any further rights of redemption, if all the forfeited delinquent taxes,
interest, penalties and fees foreclosed against the parcel are not paid to the County Treasurer
within 21 days of the entry of this judgment;

c.

Ail liens against the property, except for future installments of special assessments and liens
recorded by this state or the foreclosing governmental unit pursuant to the Natural Resources
and Environmental Protection Act, 1994 PA 451, MCL 324.101 to 324.90106, are
extinguished, if all the forfeited delinquent taxes, interest, penalties and fees are not paid to the
County Treasurer within 21 days of the entry of this judgment;

d.

The Wayne County Treasurer has good and marketable fee simple title to the property, if all
the forfeited delinquent taxes, interest, penalties and fees are not paid to the County Treasurer
within 21 days of the entry of this judgment;

e.

All existing recorded and unrecorded interests in the property are extinguished, except a visible
or recorded easement or right-of-way, private deed restrictions, or restrictions or other
governmental interests, imposed pursuant to the Natural Resources and Environmental
Protection Act, 1994PA451, MCL 324.101 to 324.90106, if all the forfeited delinquent taxes,
-2-

interest, penalties, and fees are not paid to the County Treasurer within 21 days of the entry of
this judgment;
f.

Properties listed in the Petition, which are not foreclosed by this judgment and on which
delinquent taxes, interest, fees, and penalties remain unpaid and which are not ordered
permanently removed, remain subject to future foreclosure proceedings by the foreclosing
governmental unit as provided MCL 211.78. The removal of a property from the Petition shall
not be prejudicial to its inclusion on any future petition for tax foreclosure filed pursuant to
Public Act 123 of 1999, as amended; and

g-

This judgment does not resolve the last pending claim and does not close the case.

/s/ Timothy M. Kenny

Hon. Timothy M. Kenny
Chief Judge, Wayne County Circuit Court

0301193

-3-

Judgment of Foreclosure

STATE OF MICHIGAN
COUNTY OF: WAYNE

Page S

Schedule A March 28, 2019

CITY OF Detroit WARD 22
TAX DESCRIPTION
ID.
OF LAND
22109318.

TAX
BASE
TOTAL
YEAR
TAXES
INTEREST
16155 BLACKSTONE DETROIT
776.34

PA123
FEE

ADMIN
FEE

TOTAL
DUE

55.95

2,474.20

2015

1,398.82

2016

1,505.74

564.66

297.00

60.23

2,427.63

Total

2,904.56

1,341.00

540.09

116.18

4,901.83

243.09

W BLACKSTONE 155 & E 8 FT VAC ALLEY ADJ GRAND RIVER SUBURBAN SUB L35 P16 PLATS, W C R
22/454 50X 120.85
22110620.

16194 BENTLER DETROIT
2016

477.35

179.01

297.00

19.09

972.45

Total
477.35
179.01
297.00
19.09
972.45
E BENTLER 10 GRAND RIVER SUBURBAN SUB L35 P16 PLATS, W C R 22/454 50 X 178.64A

22113775.

15881 LAHSER DETROIT
2016

114.02

42.76

28.53

4.56

189.87

Total
114.02
42.76
28.53
4.56
189.87
W LAHSER 6 B E TAYLORS BRIGHTMOOR-JOHNS SUB L45 P1 PLATS, W C R 22/483 35 X 127.22A

22124288.

17206 SALEM DETROIT

2016

127.17

47.69

297.00

5.09

476.95

Total
127.17
47.69
297.00
5.09
476.95
E SALEM 131 MORTENSONS GRAND RIVER SUB L39 P1 PLATS, W C R 22/374 50 X 172

22124912.

10867 W OUTER DRIVE DETROIT
2016

294.76

110.54

297.00

11.79

714.09

Total
294.76
110.54
297.00
11.79
714.09
S OUTER DRIVE 418 B E TAYLORS BRIGHTMOOR SUB NO 1 L44 P21 PLATS, W C R 22/494 34.96 X 110

22124915.

10847 W OUTER DRIVE DETROIT
2015

792.23

439.69

297.00

31.69

1,560.61

2016

838.16

314.31

297.00

33.53

1,483.00

Total
1,630.39
754.00
594.00
65.22
3,043.61
S OUTER DRIVE 415 B E TAYLORS BRIGHTMOOR SUB NO 1 L44 P21 PLATS, W C R 22/494 35 X 110

41-005-07-0080-000

2968 HANLEY HAMTRAMCK
2013

1,035.24

947.25

294.09

41.41

2,317.99

2014

1,315.43

966.84

297.00

52.62

2,631.89

2015

1,471.77

816.83

297.00

58.87

2,644.47

405.90

220.00

43.30

1,751.60

2016

1,082.40

Total
4,904.84
3,136.82
1,108.09
LOT 80 SYNDICATE ADDITION NO 1 1/4 SEC 41 10,000 A.T. L.15 P.12 WCR

196.209,345.95

APPENDIX I

(•

Court of Appeals, State of Mibhigan
ORDER

FILEDfn re Petition of Wayne County Treasurer for ForecI osure
Docket No.
LCNo.

:

MAY 24 2019

348565

BY

18-006771-CH

1

f

Christopher M. Murray, Chief Judge, acting under MCR 7.201 (BX3). orders:
i

■w«p 7^m^W^faF^iDISMISSED f0r
to Pursue *e ^ in conformity with the
rules, '
7v°
7.216(A)(10).- The Clerk of this Court provided notice regarding the
Court ^fthhe de?f fJ“S GUnS ™d me defect was not corrected in a timely manner by providing this
, , . th ?5°of that.th® ain°unt due to the Way^e Co^ty Treasurer under the judgment of foreclosure
reared under MCL 211.78k(7) and MCR: 7.204(E)(4). Dismissal is without prejudice
to whatever- other, relief may be available consistent with .the Court Rules.

==fHgmmm
. In re

i

i

/

i!
!!

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

-7

May 22. 201 <3
Dale

. .ChieTClerk

APPENDIX J

STATE CONSTITUTION (EXCERPT)
CONSTITUTION OF MICHIGAN OF 1963
§ 2 Separation of powers of government.

Sec. 2. The powers of government are divided into three branches: legislative, executive and judicial. No
person exercising powers of one branch shall exercise powers properly belonging to another branch except as
expressly provided in this constitution.
History: Const. 1963, Art III, § 2, Eff. Jan. 1,1964.
Former constitution: See Const. 1908, Art. IV, § 2.

Rendered Thursday, August 27, 2020

© Legislative Council, State of Michigan

Page 1

Michigan Compiled Laws Complete Through PA 149 of 2020

Courtesy of www. legislature, mi. go v

APPENDIX K

STATE CONSTITUTION (EXCERPT)
CONSTITUTION OF MICHIGAN OF 1963
§ 5 Intergovernmental agreements; service by public officers and employees.
Sec. 5. Subject to provisions of general law, this state or any political subdivision thereof, any
governmental authority or any combination thereof may enter into agreements for the performance, financing
or execution of their respective functions, with any one or more of the other states, the United States, the
Dominion of Canada, or any political subdivision thereof unless otherwise provided in this constitution. Any
other provision of this constitution notwithstanding, an officer or employee of the state or of any such unit of
government or subdivision or agency thereof may serve on or with any governmental body established for the
purposes set forth in this section and shall not be required to relinquish his office or employment by reason of
such service. The legislature may impose such restrictions, limitations or conditions on such service as it may
deem appropriate.
History: Const 1963, Ait. Ill, § 5, Eff. Jan. 1,1964.

Rendered Thursday, August 27,2020

© Legislative Council, State of Michigan

Page 1

Michigan Compiled Laws Complete Through PA 149 of 2020

Courtesy of www.legislature.mi.gov

APPENDIX L

STATE CONSTITUTION (EXCERPT)
CONSTITUTION OF MICHIGAN OF 1963
§ 24 Laws; object, title, amendments changing purpose.

Sec. 24. No law shall embrace more than one object, which shall be expressed in its title. No bill shall be
altered or amended on its passage through either house so as to change its original purpose as determined by
its total content and not alone by its title.
History: Const 1963, Art IV, § 24, Eff. Jan. 1, 1964.
Former constitution: See Const. 1908, Art. V, §§ 21,22.

Rendered Thursday, August 27, 2020

© Legislative Council, State of Michigan

Page 1

Michigan Compiled taws Complete Through PA 149 of 2020

Courtesy of www.legislature.mi.gov

m

APPENDIX M

1

QUESTIONS PRESENTED
1. Whether suits concerning property taken as part
of the Holocaust are within the expropriation excep­
tion to the Foreign Sovereign Immunities Act of 1976
(“FSIA”), which provides jurisdiction over suits con­
cerning property taken in violation of international
law. 28 U.S.C. § 1605(a)(3).
2. Whether a foreign state may assert a comity de­
fense that is outside the FSIA’s “comprehensive set of
legal standards governing claims of immunity in every
civil action against a foreign state.”

APPENDIX N

9/22/2020

11 U.S. Code § 524 - Effect of discharge | U.S. Code | US Law | Lll / Legal Information Institute

11 U.S. Code §524. Effect of discharge
U.S. Code

Notes

(a) A discharge in a case under this title—
(1) voids any judgment at any time obtained, to the extent that such
judgment is a determination of the personal liability of the debtor with
respect to any debt discharged under section 727, 944, 1141, 1192,
1228, or 1328 of this title, whether or not discharge of such debt is
waived;
(2) operates as an injunction against the commencement or
continuation of an action, the employment of process, or an act, to
collect, recover or offset any such debt as a personal liability of the
debtor, whether or not discharge of such debt is waived; and
r
(3) operates as an injunction against the commencement or
continuation of an action, the employment of process, or an act, to
collect or recover from, or offset against, property of the debtor of the
kind specified in section 541(a)(2) of this title that is acquired after the
commencement of the case, on account of any allowable community
claim, except a community claim that is excepted from discharge under
section 523, 1192, 1228(a)(1), or 1328(a)(1), or that would be so
excepted, determined in accordance with the provisions of sections
523(c) and 523(d) of this title, in a case concerning the debtor's
spouse commenced on the date of the filing of the petition in the case
concerning the debtor, whether or not discharge of the debt based on
such community claim is waived.
(b) Subsection (a)(3) of this section does not apply if—

11 U.S. Code § 524 - Effect of discharge | U.S. Code | US Law | Lit / Legal Information Institute

9/22/2020

(4)
(A)
(i) Subject to subparagraph (B), an injunction described in
paragraph (1) shall be valid and enforceable against all entities
that it addresses.
(ii) Notwithstanding the provisions of section 524(e), such an
injunction may bar any action directed against a third party
who is identifiable from the terms of such injunction (by name
or as part of an identifiable group) and is alleged to be directly
or indirectly liable for the conduct of, claims against, or
demands on the debtor to the extent such alleged liability of
such third party arises by reason of—
(I) the third party's ownership of a financial interest in the
debtor, a past or present affiliate of the debtor, or a
predecessor in interest of the debtor;
(II) the third party's involvement in the management of the
debtor or a predecessor in interest of the debtor, or service
as an officer, director or employee of the debtor or a related

party.;
(Ill) the third party's provision of insurance to the debtor
or a related party; or
(IV) the third party's involvement in a transaction changing
the corporate structure, or in a loan or other financial
transaction affecting the financial condition, of the debtor or
a related party, including but not limited to—
(aa) involvement in providing financing (debt or equity),
or advice to an entity involved in such a transaction; or
(bb) acquiring or selling a financial interest in an entity
as part of such a transaction.

(iii) As used in this subparagraph, the term "related party"
means—
(I) a past or present affiliate of the debtor;

11 U.S. Code § 524 - Effect of discharge | U.S. Code | US Law | Lll / Legal Information Institute

912212020

(Pub. L. 95-598, Nov. 6, 1978, 92 Stat. 2592; Pub. L. 98-353, title III,
§§ 308, 455, July 10, 1984, 98 Stat. 354, 376; Pub. L. 99-554, title II,
§§ 257(o), 282, 283(k), Oct. 27, 1986, 100 Stat. 3115-3117; Pub;.1...103l
394, title 1, §§ 103, 111(a), title V, § 501(d)(14), Oct. 22, 1994, 108 Stat.
4108, 4113, 4145; Pub. L. 109-8, title II, §§202, 203(a), title XII, § 1210,
Apr. 20, 2005, 119 Stat. 43, 194; Pub. L. 111-327, §2(a)(19), Dec. 22,
2010, 124 Stat. 3559; Pub. L. 116-54, §4(a)(9), Aug. 23, 2019, 133 Stat.
1086.)

tasy payment plans
OPEN

Chapter 7 filed for only $999. $300 down gets
■ ^ ^ M rN I

I

4-

u* 4* r**v

S U.S. Code Toolbox
Law about... Articles from Wex
Table of Popular Names
Parallel Table of Authorities
How current is this?

87

APPENDIX O

THE GENERAL PROPERTY TAX ACT (EXCERPT)
Act 206 of 1893
211.78k Petition for foreclosure; proof of service of notice; filing with circuit court;
contesting validity or correctness by person claiming property interest; filing objections;
withholding property from foreclosure or extending redemption period; entry of judgment;
specifications; failure to pay delinquent taxes, interest, penalties, and fees after entry of
judgment; appeal to court of appeals; recording notice of judgment; cancellation;
submission of certificate of error.
Sec. 78k. (1) If a petition for foreclosure is filed under section 78h, not later than the date of the hearing,
the foreclosing governmental unit shall file with the clerk of the circuit court proof of service of the notice of
the show cause hearing under section 78j, proof of service of the notice of the foreclosure hearing under this
section, and proof of the personal visit to the property and publication under section 78i.
(2) A person claiming an interest in a parcel of property set forth in the petition for foreclosure may contest
the validity or correctness of the forfeited unpaid delinquent taxes, interest, penalties, and fees for 1 or more
of the following reasons:
(a) No law authorizes the tax.
(b) The person appointed to decide whether a tax will be levied under a law of this state acted without
jurisdiction, or did not impose the tax in question.
(c) The property was exempt from the tax in question, or the tax was not legally levied.
(d) The tax has been paid within the time limited by law for payment or redemption.
(e) The tax was assessed fraudulently.
(f) The description of the property used in the assessment was so indefinite or erroneous that the forfeiture
was void.
(3) A person claiming an interest in a parcel of property set forth in the petition for foreclosure who desires
to contest that petition shall file written objections with the cleric of the circuit court and serve those
objections on the foreclosing governmental unit before the date of the hearing required under this section.
(4) If the court determines that the owner of property subject to foreclosure is a minor heir, is incompetent,
is without means of support, or is undergoing a substantial financial hardship, the court may withhold that
property from foreclosure for 1 year or may enTS^moraerextenaing the redemption period as the court
determines to be equitable. If the court withholds property from foreclosure under this subsection, a taxing
unit's lien for taxes due is not prejudiced and that property must be included in the immediately succeeding
year's tax foreclosure proceeding.
(5) The circuit court shall enter final judgment on a petition for foreclosure filed under section 78h at any
time after the hearing under this section but not later than the March 30 immediately succeeding the hearing
with the judgment effective on the March 31 immediately succeeding the hearing for uncontested cases or 10
days after the conclusion of the hearing for contested cases. All redemption rights to the property expire on
the March 31 immediately succeeding the entry of a judgment foreclosing the property under this section, or
in a contested case 21 days after the entry of a judgment foreclosing the property under this section. The
circuit court's judgment must specify all of the following:
(a) The legal description and, if known, the street address of the property foreclosed and the forfeited
unpaid delinquent taxes, interest, penalties, and fees due on each parcel of property.
(b) That fee simple title to property foreclosed by the judgment will vest absolutely in the foreclosing
governmental unit, except as otherwise provided in subdivisions (c) and (e), without any further rights of
redemption, if all forfeited delinquent taxes, interest, penalties, and fees, which delinquent taxes, interest,
penalties, and fees may be reduced by the foreclosing governmental unit in accordance with section 78g(8),
are not paid on or before the March 31 immediately succeeding the entry of a judgment foreclosing the
property under this section, or in a contested case within 21 days of the entry of a judgment foreclosing the
property under this section.
(c) That all liens against the property, including any lien for unpaid taxes or special assessments, except
future installments of special assessments and liens recorded by this state or the foreclosing governmental unit
under the natural resources and environmental protection act, 1994 PA 451, MCL 324.101 to 324.90106, are
extinguished, if all forfeited delinquent taxes, interest, penalties, and fees are not paid on or before the March
31 immediately succeeding the entry of a judgment foreclosing the property under this section, or in a
contested case within 21 days of the entry of a judgment foreclosing the property under this section.
(d) That, except as otherwise provided in subdivisions (c) and (e), the foreclosing governmental unit has
good and marketable fee simple title to the property, if all forfeited delinquent taxes, interest, penalties, and
Rendered Thursday, August 27, 2020

© Legislative Council, State of Michigan

Page 1

Michigan Compiled Laws Complete Through PA 149 of 2020

Courtesy ofwww.legislature.mi.gov

fees are not paid on or before the March 31 immediately succeeding the entry of a judgment foreclosing the
'pr6pefty'uhderthis^section,_orina'coritested'case"within2rdays'of the entry of a judgment foreclosing the ~
property under this section.____ _________
(e) That all existing recorded and unrecorded interests in that property are extinguished, except a visible or
recorded easement or right-of-way, private deed restrictions, interests of a lessee or an assignee of an interest
of a lessee under a recorded oil or gas lease, interests in oil or gas in that property that are owned by a person
other than the owner of the surface that have been preserved as provided in section 1(3) of 1963 PA 42, MCL
554.291, interests in property assessable as personal property under section 8(g), or restrictions or other
governmental interests imposed under the natural resources and environmental protection act, 1994 PA 451,
MCL 324.101 to 324.90106, if all forfeited delinquent taxes, interest, penalties, and fees are not paid on or
'before‘the"March'31_immediateiy~succeeding ‘the ’entry^f "adjudgment 'fo7eciosingTthe 'propertyunder tliis^
section,- or ina contested case within 21 -days of-the entry of- a judgment foreclosing the property -under this section.
■ •
(f) A finding that all persons entitled to notice and an opportunity to be heard have been provided that
notice and opportunity. A person is considered to have been provided notice and an opportunity to be heard if
the foreclosing governmental unit followed the procedures for provision of notice by mail, for visits to
forfeited property, and for publication under section 78i, or if 1 or more of the following apply:
(i) The person had constructive notice of the hearing under this section by acquiring an interest in the
property after the date the notice of forfeiture is recorded under section 78g.
(it) The person appeared at the hearing under this section or filed written objections with the clerk of the
circuit court under subsection (3) before the hearing.
(iii) Before the hearing under this section, the person had actual notice of the hearing.
(g) A judgment entered under this section is a final order with respect to the property affected by the
judgment and except as provided in subsection (7) must not be modified, stayed, or held invalid after the
March 31 immediately succeeding the entry of a judgment foreclosing the property under this section, or for
contested cases 21 days after the entry of a judgment foreclosing the property under this section.
(6) Except as otherwise provided in subsection (5)(c) and (e), fee simple title to property set forth in a
petition for foreclosure filed under section 78h on which forfeited delinquent taxes, interest, penalties, and
fees are not paid on or before the March 31 immediately succeeding the entry of a judgment foreclosing the
property under this section, or in a contested case within 21 days of the entry of a judgment foreclosing the
property under this section, will vest absolutely in the foreclosing governmental unit, and the foreclosing
governmental unit will have absolute title to the property, including all interests in oil or gas in that property
except the interests of a lessee or an assignee of an interest of a lessee under an oil or gas lease in effect as to
that property or any part of that property if the lease was recorded in the office of the register of deeds in the
county in which the property is located before the date of filing die petition for foreclosure under section 78h,
and interests preserved as provided in section 1(3) of 1963 PA 42, MCL 554.291. The foreclosing
governmental unit's title is not subject to any recorded or unrecorded lien and must not be stayed or held
invalid except as provided in subsection (7) or (9).
(7) The foreclosing governmental unit or a person claiming to have a property interest under section 78i in
property foreclosed under this section may appeal the circuit court's order or the circuit court's judgment
foreclosing property to the court of appeals. An appeal under this subsection is limited to the record of the
proceedings in the circuit court under this section is not de novo. The circuit court's judgment foreclosing
property must be stayed until the court of appeals has reversed, modified, or affirmed that judgment. If an
appeal under this subsection stays the circuit court's judgment foreclosing property, the circuit court's
judgment is stayed only as to the property that is the subject of that appeal and the circuit court's judgment
foreclosing other property that is not the subject of that appeal is not stayed. To appeal the circuit court's
judgment foreclosing property, a person appealing the judgment shall na^o the county treasurer the amount gf
determined to be due to the county treasurer under the judgment onorTiefore the March 31 immediately
succeeding the entry of a judgment foreclosing the property under this section, or in a contested case within
21 days of the entry of a judgment foreclosing the property under this section, together with a notice of
appeal. If the circuit court's judgment foreclosing the property is affirmed on appeal, the amount determined
to be due must be refunded to the person who appealed the judgment. If the circuit court's judgment
foreclosing the property is reversed or modified on appeal, the county treasurer shall refund the amount
determined to be due to the person who appealed the judgment, if any, and retain the balance in accordance
with the order of the court of appeals.
(8) The foreclosing governmental unit shall record a notice of judgment for each parcel of foreclosed
property in the office of the register of deeds for the county in which the foreclosed property is located in a
form prescribed by the department of treasury.
Rendered Thursday, August 27,2020

© Legislative Council, State of Michigan

Page 2

Michigan Compiled Laws Complete Through PA 149 of 2020

Courtesy of www. legislature, mi.go v

APPENDIX P

Z)
The Bill of Rights: A Transcription | National Archives

9/22/2020

Amendment I
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press; or the right ofthe people
peaceably to assemble, and to petition the Government for a redress of grievances.

Amendment II
A well regulated Militia, being necessary to the security of a free State, the right ofthe people to
keep and bear Arms, shall not be infringed.

Amendment III
No Soldier shall, in time of peace be quartered in any house, without the consent of the Owner,
nor in time of war, but in a manner to be prescribed by law.

Amendment IV
The right ofthe people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the place to
be searched, and the persons or things to be seized.

Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.

Amendment VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be informed ofthe nature and
cause ofthe accusation; to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defence.

Amendment VII

The Bill of Rights: A Transcription | National Archives

9/22/2020

In Suits at common law, where the value in controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried by a jury, shall be otherwise re-examined in any
Court of the United States, than according to the rules of the common law.

Amendment VIII
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.

Amendment IX
The enumeration in the Constitution, of certain rights, shall not be construed to deny or
disparage others retained by the people.

Amendment X
The powers not delegated to the United States by the Constitution, nor prohibited by it to the
States, are reserved to the States respectively, or to the people.
^Amendments 11-27
Note: The capitalization and punctuation in this version is from the enrolled original of the Joint Resolution of
Congress proposing the Bill of Rights, which is on permanent display in the Rotunda of the National Archives
Building, Washington, D.C.

< Back to Main Bill of Rights Page

I
The U.S. National Archives and Records Administration
1-86-NARA-NARA or 1-866-272-6272
Top

